                                          Office of Inspector General
                                          U.S. Small Business Administration


                                                                                         February 2011 Update



  Business Loan Programs                                              information accusing him of presenting false tax
                                                                      information to the SBA and the purchaser in order to
  Pennsylvania Businessman Sentenced                                  artificially inflate the annual sales revenues of the gas
  On February 11, 2011, a Pennsylvania businessman                    station.
  was sentenced to 6 years probation, and ordered to pay
  $75 in fines and $4,998 in restitution. In addition, he             Disaster Loans
  was ordered not hold a fiduciary position for six years.
  The subject had previously pled guilty to three counts              Disaster Assistance Recipient Indicted
  of theft by deception based on charges initiated by the             On February 2, 2011, a Mississippi woman was
  Tredyffrin Police Department, the Phoenixville Police               indicted on two counts of false or fraudulent
  Department, and the New Garden Township Police                      statements and two counts of theft of government
  Department. Specifically, he had misrepresented to                  funds. The indictment charges that she claimed
  the complainants that he could secure SBA loans for                 addresses on her applications for disaster assistance
  them. He accepted application fees from the                         following Hurricane Katrina that were not her primary
  complainants knowing he was not an SBA-approved                     residence in an attempt to fraudulently receive benefits
  lender. This was a joint investigation with the                     from the affected agencies. The woman received an
  Tredyffrin Police Department, the Phoenixville Police               SBA disaster home loan of $43,000, but has since
  Department, and the New Garden Township Police                      repaid the remaining balance owed to the SBA as a
  Department.                                                         result of this investigation. This is a joint investigation
                                                                      with the U.S. Housing and Urban Development
  Texas Businessman Sentenced                                         (HUD) Office of Inspector General (OIG), the U.S.
  On February 14, 2011, a Texas businessman was                       Department of Homeland Security (DHS) OIG, and
  sentenced to 5 years probation (including 8 months                  the Mississippi State Auditor’s Office.
  house arrest), and ordered to pay a $10,000 fine, a
  $100 special assessment fee, and $297,320 in                        Mississippi Man Indicted
  restitution. He had previously pled guilty to one count             On February 2, 2011, a Mississippi man was indicted
  of conspiracy. The businessman, through his                         on one count of theft of government funds and one
  company, sold convenience stores to another firm,                   count of fraud and swindles. The indictment alleges
  which had obtained a $1 million SBA-guaranteed loan                 that the subject misrepresented on his SBA loan
  and a $300,000 conventional bank loan. The subject                  application that his primary residence had been
  conspired with others by representing to the lending                damaged by Hurricane Katrina in order to secure a
  bank that money had been received at the closing from               $144,900 disaster home loan. Of that amount,
  purchaser when it had not. This was a joint                         $121,300 was disbursed. As a result of this
  investigation with the Federal Bureau of Investigation              investigation, the subject repaid the remaining balance
  (FBI).                                                              of his SBA loan. The subject also made the same
                                                                      claims when completing applications for Federal
  Alabama Business Owner Pleads Guilty                                Emergency Management Agency (FEMA) and
  On February 24, 2011, a former gas station owner pled               Mississippi Development Authority grant benefits.
  guilty to one count of making false statements. The                 This is a joint investigation with the HUD OIG, DHS
  subject was the owner of a gas station that he sold to              OIG, and the Mississippi State Auditor’s Office.
  an individual utilizing an SBA loan of $76,000. The
  guilty plea was made in response to a criminal


Monthly Update on Activities of the SBA Office of Inspector General
New Jersey Business Owner Indicted                                    servicing center from a universe of 9,990 checks. We
On February 9, 2011, a New Jersey business owner                      also identified an additional $529,444 in insurance
and her company were indicted in the Superior Court                   checks that resulted in duplicate benefits that were
of New Jersey on one count of theft by deception--                    undetected by the Birmingham servicing center, which
second degree and three counts of theft by deception--                were outside of the sampled universe.
third degree. The indictment alleges that the owner
and her business, a defunct retail and design company,                The incorrect DOB determinations and disposition of
submitted misrepresentations and made false                           insurance recovery checks occurred because: (1) SBA
statements in connection with an SBA disaster loan.                   did not have adequate procedures to evaluate
Specifically, it is alleged that she submitted fraudulent             insurance checks for duplicate benefits; (2) some
invoices and correspondence when originally applying                  employees lacked the expertise and tools to calculate
for the $80,100 loan related to floods in the local area,             remaining loan eligibility needed for the DOB
and when requesting additional funds from the SBA                     determination; and (3) the centers did not adequately
which were denied. This is a joint investigation with                 document information to support the DOB
the State of New Jersey, Office of the Attorney                       determination so that it would be available if a check
General, Division of Criminal Justice.                                for the same borrower was subsequently received.

Audit of SBA’s Processing of Insurance Recovery                       We recommended that the SBA improve the system
Checks                                                                for processing insurance recovery checks. We further
On February 10, 2011, the OIG issued a report on an                   recommended that the servicing centers: assign the
audit of the processing of insurance recovery checks at               insurance recovery check processing to selected
two Disaster Loan Servicing Centers. Based on a                       individuals; fully document the justification for the
review of a sample of checks processed by the                         decision to return or retain each check; and recover
servicing centers, the OIG determined that the centers                duplicate benefits identified in this audit.
did not have adequate or effective procedures for
processing insurance recovery checks. As a result,                    Texas Man Pleads Guilty
significant errors in Duplication of Benefits (DOB)                   On February 16, 2011, a Texas man pled guilty to one
determinations were made.                                             count of wire fraud. The subject had received an SBA
                                                                      disaster business loan for $196,300 for Hurricane Rita
The Disaster Loan Servicing Centers made inaccurate                   damages. On his SBA loan application, he answered
DOB determinations and inappropriately returned or                    “no” to ever being convicted of a criminal offense or
retained some insurance checks. Specifically, 36 of                   ever being indicted or on probation. A criminal
77, or 47 percent, of the checks from our sample that                 history check revealed that he had been arrested on
were processed by the Birmingham servicing center                     numerous occasions and had been convicted of various
had inaccurate DOB determinations. Of the 36                          crimes including possession of a controlled substance,
inaccurate determinations made by the Birmingham                      burglary, resisting arrest, destruction of property,
servicing center, 32 checks totaling $477,102 were                    malicious mischief, burglary of a vehicle, and assault.
returned to borrowers in error, and 4 checks totaling                 The investigation also determined that he had
$108,956 were erroneously applied to outstanding loan                 submitted fictitious receipts and estimates to the SBA
balances. Additionally, 22 of 97, or 23 percent, of the               regarding his Hurricane Rita business loan. This loan
checks from our sample that were processed by the El                  is currently in default for the entire amount.
Paso servicing center also had inaccurate DOB
determinations. The El Paso servicing center                          The subject had also applied for Hurricane Ike
improperly returned 19 checks totaling $148,778 and                   business and home loans that were put on hold
improperly applied 3 checks totaling $15,036.                         pending the outcome of the fraud allegations relating
                                                                      to the Hurricane Rita loan. A review of bank records
Projecting the sample results to the universe of 21,568               revealed that the subject used SBA loan money to pay
checks processed by the Birmingham servicing center                   off his Chapter 13 bankruptcy, as well as college
during fiscal years 2008 and 2009, at least $3,498,799                tuition for his daughter, new furniture, a car for his
in duplicate benefits were returned to borrowers in                   wife, and loans to his family and friends. The
error. Similarly, we projected that at least $667,362 in              investigation uncovered that the subject only spent
duplicate benefits was returned in error by the El Paso



Update on the Activities of the SBA Office of Inspector General   2                                     February 2011
approximately $50,000 on actual business property                     associated delivery orders and BPA calls from SBA
and expenses from the $196,300 SBA loan.                              calculations; implement and provide annual training to
                                                                      contracting officers on reporting contract data to
Louisiana Woman Sentenced                                             FPDS-NG; conduct a comprehensive review of data
On February 23, 2011, a Louisiana woman was                           submitted to FPDS-NG for SBA contracts awarded to
sentenced to 37 months in federal prison and 3 years                  iTechnologies, reconcile all discrepancies identified,
supervised release, and was also ordered to pay                       and correct any inaccurately reported data; and hold
restitution in the amount of $476,905.75 and a special                contracting officers accountable for FPDS-NG data
assessment fee of $400. She had previously pled                       accuracy requirements by incorporating FPDS-NG
guilty to possession of a falsely obtained passport,                  data accuracy reporting requirements in each
false statements, theft of government funds, and mail                 contracting officer’s performance plan.
fraud. The woman had applied for and received a
$342,000 SBA Economic Injury Disaster Loan on
behalf of her father for rental property damages caused
by Hurricane Katrina. She perpetrated a complex                             This update is produced by the SBA OIG,
scheme in which she submitted falsified receipts and                         Peggy E. Gustafson, Inspector General.
rental agreements in order to induce the SBA to
approve her father’s loan. In addition, she                                The OIG has established an e-mail address,
fraudulently recorded the SBA lien on her uptown                       oig@sba.gov that we encourage the public to use to
mansion to satisfy SBA’s requirement to secure the                      communicate with our office. We welcome your
loan with collateral. This was a joint investigation                     comments concerning this update or other OIG
with the DHS OIG and the HUD OIG.                                      publications. To obtain copies of these documents
                                                                                        please contact:
Agency Management
                                                                                          SBA OIG
Review of the SBA’s Procurement of Information                                  409 Third Street SW., 7th Floor
Technology Hardware and Software Through ISIKA                                      Washington, DC 20416
Technologies                                                                         E-mail: oig@sba.gov
On February 25, 2011, the OIG issued a report the                              Telephone number (202) 205-6586
results of an audit of the SBA’s procurement of                                  FAX number (202) 205-7382
information technology (IT) hardware and software
through ISIKA Technologies, Inc. (iTechnologies).                     Many OIG reports can be found on the OIG’s website
The OIG found that the SBA inadequately planned and
inappropriately awarded two 8(a) sole-source                             http://www.sba.gov/office-of-inspector-general
Indefinite-Delivery/Indefinite-Quantity (IDIQ)
contracts and a Blanket Purchase Agreement (BPA) to                      If you are aware of suspected waste, fraud, or
the company for the procurement of the IT hardware                    abuse in any SBA program, please report it online at:
and software. As a result, the SBA: (1) did not have
reasonable assurance that it received the best value in                http://www.sba.gov/office-of-inspector-general/2662
these contracts; (2) violated the Competition in
Contracting Act and federal regulations; and                           Or call the OIG Hotline toll-free at (800) 767-0385
(3) misled Federal Procurement Data System – Next
Generation (FPDS-NG) users by providing inaccurate
data. In total, the SBA reported nearly $7.6 million in
obligations to the FPDS-NG.

The OIG recommended that the SBA immediately
terminate the iTechnologies contracts and re-solicit the
IT hardware and software requirement using full and
open competition procedures; implement and provide
annual training; exclude the iTechnologies IT
hardware and software contract awards and all



Update on the Activities of the SBA Office of Inspector General   3                                     February 2011
